Department of Health and Human Sewices

        OFFICE OF

   INSPECTOR GENERAL





ELECTRONIC DATA INTERCHANGE

 AND PAPERLESS PROCESSING:


     ISSUES AND CHALLENGES





                 f,* SERVICE$“Lfa
             &
         $                    7
                                    JUNE  GIBBS BROWN
         g
         <                          Inspector  General
         2
         ‘3
          %#-
                 2
                  #

                 %d~~
                                           MARCH    1994
                                           oEI-12-93-Oooso
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human SeMces’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit SeMces, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,

and effectiveness of departmental programs. This report was prepared under the direction of

Penny Thompson, Chief, Health Care Branch, Office of Evaluation and Inspections.

Participating in this project were the following primary authors:


Thomas    A. Noplock, Office of Evaluation and Inspections

Stephen   W. Greenfield, Office of Audit SeMces

Thomas    R. Hoffman, Office of General Counsel, Inspector General Division

Thomas    J. Elliott, Office of Audit Services


For additional copies of this report, please contact Thomas A. Noplock at (410) 966-3144.

Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





ELECTRONIC DATA INTERCHANGE

 AND PAPERLESS PROCESSING:


     ISSUES AND CHALLENGES





          MARCH   1994   OEI-12-93-00080

              EXECUTIVE                        SUMMARY

PURPOSE

The purpose of this document is to (1) identi~ emerging issues in the expansion of the
Health Care Financing Administration’s (HCFA) use of electronic data interchange
(EDI) and related technology to achieve paperless processing, and (2) discuss the
Office of Inspector General’s (OIG) current plans to provide oversight of HCFA’S
strategy to implement a paperless environment. We have developed it through a
review of literature and consultation within the OIG, and with HCFA and others.

BACKGROUND

Electronic Data Interchange is the electronic transfer of information, such as
electronic media claims, in a standard format between trading partners. As it relates
to health care, this new technology will allow entities within the health care system,
connected by an integrated system of electronic communication networks, to exchange
medical, billing, and other information and process transactions in a manner which is
fast and cost effective. Most of these improvements are likely to result from the
significant reduction or elimination of paper transactions.

ISSUES

The HCFAS far-reaching implementation of EDI and paperless processing contains
many parts which all relate to the larger strategy and goals of this initiative. Among
the significant issues affecting this strategy are the following:

F	    Systems--such as the Medicare Transaction System (MTS), Medicaid
      Management Information Systems (MMIS), and point-of-service claims
      management systems under Medicaid--to process electronically submitted claims
      and manage data more efficiently.
�     Standardization, to facilitate the electronic flow of claims, patient, and
      reimbursement data between providers, payers, and quality-of-care reviewers.
�     Incentives and barriers, to encourage providers to submit claims and patient data
      electronically.
�	    Companion technologies, such as smart cards for computerized patient
      identification and medical records, and national data communications networks
      for transmission of health care data to complete the electronic cycle.

We discuss the need for a cohesive strategic systems plan covering EDI and paperless
processing, to encourage HCFAS information resources management program to
address Medicare contractor systems and Federal Medicaid initiatives.
The implementation of these new systems, in particular, carries with it myriad
questions regarding trustworthiness and reliability of data as it moves from one partner
in electronic commerce to another and from one process to another. Specific issues
raised with regard to electronic submission and processing of claims include:

F	     Confidentiality and privacy of patient records, to ensure that the confidentiality of
       personally-identifiable health insurance data be strictly maintained and
       the privacy of patients be maintained.
�	     Internal controls, to address the adequacy of management controls over
       operations and specific requirements for controls to safeguard assets
       against waste, fraud, and abuse.
�	     Audits and certification, to place more focus on systems at the provider
       level and to ensure that all EDI and paperless processing systems are
       trustworthy and reliable.
�	     Contractor con.ict of interest, to pursue the Medicare contractor conflict
       of interest issue as it relates to proprietary EDI and paperless processing
       market-driven ventures.
F�     Valid contracts, to determine the degree of compliance of current and
       planned Medicare contract requirements with the National Institute of
       Standards and Technology standards.
�	     Legal use of information submitted, to ensure the integrity of information
       through the use of provider agreements, a valid chain of custody,
       attestation and originator authentication, and the need for audit trails.

CONCLUSION

This document, prepared in response to HCFAS briefing for OIG personnel on EDI
and paperless processing issues and its request for more information on the OIG’S
concerns and plans, has identified numerous issues and goals related to HCFA’S use of
EDI and paperless processing technology. Issues related to the overall strategy of this
initiative concern the development of various systems which will allow HCFA to
process electronically submitted claims more efficiently. Other broad issues are
standardization, incentives, companion technologies, Medicare contractor systems, and
Federal Medicaid initiatives.

This document also raises issues regarding the trustworthiness and reliability of data as
it moves from one partner in electronic commerce to another and from one process to
another. These issues include confidentiality and privacy, management controls over
operations, internal controls, audits and systems certifications, Medicare contractor
conflict of interest, validity of contracts, and the integrity of information. Besides
having a significant impact on HHS and HCFA’S ability to manage the Medicare and
Medicaid programs, these issues are critical to the detection of fraud and abuse. We
plan to analyze many of these issues for the purpose of preparing our workplan over
the next few years.




                                             ii
AGENCY COMMENTS

The Health Care Financing Administration (HCFA) commented on a draft version of
this report. The HCFA suggested changes in the report to better reflect its activities
and those of the Department with respect to EDI and paperless processing, made
suggestions about the focus of OIG’S work in this area, and gave us technical
comments. We have revised our report to address many of HCFA’S comments and
also provide additional comments on HCFA’S response in Appendix B. The full text
of HCFA’S comments can be found in Appendix A.




                                          ...
                                          111
                    TABLE                     OF CONTENTS

 EXECUTIVE     SUMMARY


 INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


 ISSUES    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


    POLICY DIRECTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


          SYSTEMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


          STANDARDIZATION                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


          INCENTIVES           AND B~RIERS                    . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


          COMPANION             TECHNOLOGIES                  . . . . . . . . . . . . . . . . . . . . . . . . . ...10


          COHESIVE          STRATEGIC            SYSTEMPL~                    . . . . . . . . . . . . . . . . . . . . 12


   POLICY IMPLEMENTATION                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


          CONFIDENTIALITY                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


          INTERNAL         CONTROL               . . . . . . . . . . . . ., . . . . . . . . . . . . . . . . . ...15


          AUDITS AND CERTIFICATION                           . . . . . . . . . . . . . . . . . . . . . . . . . ...16


          CONTRACTOR              CONFLICT OF INTEREST                         . . . . . . . . . . . . . . . . . . . 19


          VALID CONTRACTS                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...20


          LEGAL USE OF INFORMATION                            . . . . . . . . . . . . . . . . . . . . . . . . ...21


CONCLUSIONS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...25


APPENDIX A - AGENCY COMMENTS                            . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l


APPENDIX B - OIG RESPONSE TO AGENCY COMMENTS                                            . . . . . . . . . . . . . B-1


APPENDIX C - ACRONYMS USED IN THIS REPORT                                       . . . . . . . . . . . . . . . . . C-1

                           INTRODUCTION

PURPOSE

The purpose of this document is to (1) identify emerging issues in the expansion of the
Health Care Financing Administration’s (HCFA) use of electronic data interchange
(EDI) and related technology to achieve paperless processing, and (2) discuss the
Office of Inspector General’s (OIG) plans to provide oversight of HCFAS strategy to
implement a paperless environmental We have developed it through a review of
literature and consultation within the OIG, and with HCFA and others.


BACKGROUND

Electronic Data Interchange is the electronic transfer of information, such as
electronic media claims, in a standard format between trading partners. As it relates
to health care, this new technology will allow entities within the health care system,
connected by an integrated system of electronic communication networks, to exchange
medical, billing and other information and process transactions in a manner which is
fast and cost effective. Most of these improvements are likely to result from the
significant reduction or elimination of paper transactions.

      Electronic Billing

      The HCFA has encouraged electronic submission of claims under Medicare for
      some time, and has recently stepped up its efforts to lead increased electronic
      billing under the Medicaid program. New incentives for the use of electronic
      billing are now in place. Providers submitting claims electronically are paid
      faster than providers submitting paper claims. The HCFA also has taken steps
      to move towards adoption of nationwide standardized electronic billing formats
      for both Part A and Part B.




    lThis document describes OIG projects which are either in progress or planned for
completion by the end of FY 1995. These projects are subject to change depending
on our availability of resources, continuing review of priorities, and assessment of new
research in the field.
       Electronic Adjudication and Payment

       All payers, including the Medicare and Medicaid programs, are moving towards
       paperless billing and adjudication and payment of claims. HCFA plans to have
       the Medicare Transaction System (MTS) in place by 1998. This system, which
       will combine Part A and Part B of the Medicare program for the purposes of
       claims submission, adjudication and payment, will replace the 14 software
       processing programs used by the 48 fiscal intermediaries and 34 carriers that
       currently process Medicare claims.

       Furthermore, most of the health care reform bills now being considered include
       provisions for simplification in the administration of health care benefits
       through the use of standardized electronic billing and payment procedures.
       Several of the reform bills also call for use of an electronically readable card to
       be used to verify eligibility for benefits.

      Beyond the Cliiims Environment

       Other initiatives will also use technology to improve the health care information
       system. The Computer-Based Patient Record Institute (CPRI) is the
       organization that has been given the responsibility to initiate and coordinate all
       activities which will establish the routine use of computer-based patient records
       in all health care settings by the year 2001. Its mission is to support the
       effective and efficient use of computer-based patient information and to foster
       the computer-based patient record (CPR) as the primay vehicle for collecting
       patient data.

These initiatives are important ones for the entire health care system, and for the
Medicare and Medicaid programs in particular. They hold out the promise of more
efficient administration of program benefits, faster claims processing, reduced
administrative costs and hassle for both providers and program administrators, and
more effective coordination of benefits and care for patients. Yet, they also hold risks,
As with any implementation of major new initiatives, thoughtful and careful planning is
essential. Coordination among groups within and outside the Department of Health
and Human Services must take place to avoid stumbling blocks. Goals, objectives and
timetables must be set. All tasks must work together to form a coherent strategy.
New vulnerabilities and problems which might be introduced by new systems and
strategies must be anticipated and overcome.




                                             2

                                     ISSUES


Major issues relating to HCFA’S EDI and paperless processing initiatives can be
grouped into two major categories: (l)policy direction; and(2) policy
implementation, including trustworthiness and reliability of systems.

POLICY DIRECTION

The HCFAS far-reaching EDI and paperless processing initiative, in both the
Medicare and Medicaid programs, contains many parts. Each of these parts is worthy
of examination in its own right and as it relates to the larger strategy and goals of this
initiative. Among the significant elements of this strategy are the following:

�	     Systems--such as the Medicare Transaction System (MTS), Medicaid
       Management Information Systems (MMIS), and point-of-service claims
       management systems under Medicaid--to more efficiently process
       electronically submitted claims and manage data.
E      Standardization, to facilitate the electronic flow of claims, patient, and
       reimbursement data between providers, payers, and quality-of-care reviewers.
F      Incentives, to encourage providers to submit claims and patient data
       electronically.
�	     Companion technolo~”es, such as smart cards for computerized patient
       identification and medical records, and national data communications networks
       for transmission of health care data to complete the electronic cycle.

We also discuss the need for a cohesive strategic systems plan covering EDI and
paperless processing, to encourage HCFA’S information resources management
program to address Medicare contractor systems and Federal Medicaid initiatives.

SYSTEMS

M2dicare ~ansaction $ystern (MIX)

The HCFAS 48 fiscal intermediaries and 34 carriers currently use 14 shared software
systems to process bilk and pay claims. Under MTS, HCFA plans to replace the
current Part A and Part B systems with one unified system. This new system will
consolidate the claims-processing function into anywhere from 1 to 10 contractors.
Current contractors would continue to handle beneficiary inquires and payment
safeguard functions, and would input paper claims to electronic format before sending
them to the processing centers. The MTS is projected to be in place by 1998 and is
expected to make it easier for HCFA to make the system changes required to put new
Medicare regulations and payment policies into effect. The MTS is also expected to
make it easier for providers to inquire about the status of their outstanding claims.


                                             3

The HCFA feels that MTS is necessary to help control the rise in Medicare processing
costs since it projects a 50 percent increase in claims volume by 1997.

Recently, HCFA awarded a $19 million, six-year contract for MTS design and
development support services to GTE Government Systems Corporation. The
General Accounting Office (GAO) was asked by Congress to review the MTS
procurement. The GAO final report, transmitted to HHS on March 1, 1994,
recommended that the Secretary ensure continuous involvement in MTS by HCFA top
management, participation by Department information resources management officials
and other experts, and reporting on progress and project status each January to
congressional appropriations and oversight committees.

The OIG has previously recommended that HCFA undertake a strategic planning
initiative to streamline, consolidate, and integrate Medicare claims processing. The
HCFA has indicated that MTS addresses this recommendation.         Thus, OIG plans to
review?’ the MTS systems design process, with particular emphasis on how HCFA
plans to improve payment safeguards, provider accountability, internal systems
controls, and financial management through implementation of the system. The
results of this review should clari~ issues raised by GAO and should be of use to
HCFA as specifications are developed for the new MTS, particularly with respect to
the sufficiency of HCFA’S safeguards designed to ensure proper payment.

Medicaid Management Infomuition $wtems (MUIS)

Each of the jurisdictions (State or territory) operating a Medicaid program is entitled
to enhanced Federal financial participation for the development and operation of a
Medicaid claims processing system--referred to by HCFA as a Medicaid Management
Information System--in accordance with minimum Federal standards. All but one of
the Medicaid jurisdictions have either implemented such a system or are in the process
of doing so.

A number of these systems have either been installed initially or have been replaced
within the last 5 years. Many of these newer MMIS incorporate in their design
features (such as State-wide data communications networks) to facilitate electronic
billing, adjudication, and payment of Medicaid claims. And, a number of these
systems are integrated with State Family Assistance Management Information Systems
(FAMIS) and State-wide data communications networks to facilitate EDI and
paperless processing in both the Medicaid and Aid for Families with Dependent
Children programs.



   “’Review of Medicare Bill and Claim Processing:    Opportunities   for Long Term
Improvement,” A-14-91-02532, August 1992.

    3As P art of “Electronic Claims Processing - Medicare,” planned for completion at
the end of FY 1995.


                                           4
The OIG plans to review recent State efforts to implement MMIS and integrated
FAMIS/MMISto determine the adequacy of the planning process, the thoroughness of
the risk analysis, and the degree of success in meeting system goals.

MedicaidPoi
         ntofServt”ce      (POS) Claims ManagementSystems

The OIG will review the States’ use of MMIS data in conducting utilization review and

analysis as part of our planned work in assessing innovative approaches to Medicaid

utilization review.


Point of Service claims management systems use computers and telecommunications

networks to perform one or more of four related but distinct claims management

functions. These are eligibility verification, claims submission, claims adjudication, and

utilization review. POS systems allow all of these functions to be performed in a

matter of seconds, before or while the services are being dispensed. Most existing

POS systems are in the private sector and are used primarily for the management of

prescription drug claims.


The Secretary of Health and Human Services (HHS), in response to requirements

included on OBRA 1990 and in conjunction with the MMIS program, has encouraged

State Medicaid programs to implement POS systems for managing prescription drug

claims. The Federal Government provides up to 90 percent Federal financial

participation for the development of these systems and has authorized the Secreta~ to

waive certain paperwork requirements.


The OIG has performed a study of Medicaid POS systems.4 In this study, the OIG

found that POS systems, in the two States that have used them, have saved money and

have enhanced program administration. It also found that few States plan to acquire

POS systems. This is due primarily to the barriers that have limited States’

implementation of POS systems and the inadequate and confusing information that

many States have received about POS systems. We plan to examine these issues

further in our upcoming MMIS review and to conduct a further study of States’

implementation of the drug utilization review (DUR) requirements of OBRA 1990.


Since the OIG study on Medicaid POS systems, 8 State Medicaid agencies (SMA)

have reported implementation systems for pharmacies (including 6 systems with

utilization review capability). Ten additional SMAS indicated that they were

developing POS modules for implementation by the end of calendar year 1993, and 21

of the remaining 33 SMAS noted that they were considering the development and

implementation of POS modules for completion by late 1994.





   4 “Point-Of-Service Claims Management         Systems For Medicaid,” OEI-01-91-00820,
May 1992.


                                             5
STANDARDIZATION

When encouraging the development anduseof anynew emerging technology, the
establishment of standards becomes a critical issue which can “make or break” the
technology. Take the example, from a few years ago, of quad-stereo. The fate of this
superior sound technology was in the hands of a few manufacturers who could not
agree on a standardized equipment format. Because of the lack of standardization, the
technology never made the market penetration it was expected to achieve. While
EDI, unlike quad-stereo, is here to stay, the fate of its universal acceptance does lie in
the hands of those groups which are in the position to mandate equipment and
software standards.

Currently, there is no national group which is responsible for the establishment of a
uniform data set and uniform data element definitions with respect to health care
transactions. Informational standard setting organizations, such as the National
Uniform Billing Committee and the Uniform Claim Form Task Force, have not been
given a clear role in defining data element definitions and reporting requirements.
Also, compliance with the recommendations made by these groups is generally
voluntary. There is an additional problem caused by the lack of coordination between
the groups that develop the electronic formats (e.g. the American National Standards
Institute or ANSI) and the standard setting groups. The standard setting groups are
not always allowed to review the new EDI transaction data sets developed by ANSI
and others.

The Federal Government has the opportunity to take the lead in encouraging (if
necessary mandating) and guiding the development of EDI standards. But, if EDI is
to be standardized throughout the entire health care community, the Federal
Government must be prepared to modify substantially, if necessary, the current
systems utilized by Medicare, State Medicaid programs, the Department of Veteran
Affairs, Civilian Health and Medical Program of the Uniform Services (CHAMPUS),
and the Indian Health Service.

In the previous administration, Secretary Sullivan of HHS established the Workgroup
for Electronic Data Interchange (WEDI) to work with the insurance industry on
standardizing electronic billing, remittance advice and banking formats, and moving
towards an all-electronic environment for processing of health insurance claims in the
public and private sectors. The impetus for this effort was a generally-accepted
premise that costs of administering Medicare, Medicaid, and private health insurance
plans and the paperwork burden imposed on providers by the insurance industry are
inordinately high without significantly constraining health care costs.

Under this effort, some progress in standardization was made. The HCFA began
active participation in the ANSI committee establishing standardized electronic
formats for the health insurance industry. The HCFA then issued regulations calling
for the use of ANSI standard transactions for electronic remittance notices and


                                            6

payments by both the Medicare and Medicaid programs. The HCFA is planning to
implement a standard uniform institutional billing form for Medicare and Medicaid
over the next year. Legislation, which would have empowered national standards
organizations to establish mandatory standards for electronic submission and payment
of claims, facilitated establishment of a national telecommunications network for
health care administrative data, and promoted the clearinghouse concept to improve
the coordination of benefits between various public and private payers, was not passed
in the last session of Congress. However, the Clinton Administration has recognized
the importance of standards and integrated health information systems and
communications networks as a way to promote administrative simplification in health
care. It has included establishment of such standards and networks under the auspices
of a National Health Board as part of its health care reform proposal.

We plan to track and analyze progress by the Department and HCFA in fostering
standardization as part of our ongoing assessment of HCFA’S ability to move to
paperless processing in the age of EDI and electronic commerce.

INCENTIVES      AND BARRIERS

?%ehxfidkm’    Pmpective

An obvious obstacle to getting providers to “buy into” an EDI and paperless

processing system is simply the resistance to change to a new method of doing

business. Then there are more substantiated reasons for not wanting to use EDI and

paperless processing. One example is that some provider types, especially DME

suppliers, have refrained from using EDI and paperless processing because there are

no electronic methods for submitting attachments. Another reason for not using EDI

is the lack of standard data sets. This forces many providers to adopt an electronic

format which is compatible with the payer to whom the provider submits the majority

of their bills. Finally, there are the additional costs incurred by a provider who wishes

to convert to EDI and paperless processing.


Issues which may need to be addressed include:


b	     What education programs can be put in place to help overcome provider
       resistance to change?

b      Should HCFA create EDI and paperless processing benefit models based on
       provider size, geographic location, and patient mix, in order show providers
       how the benefits of EDI and paperless processing relate to them?

�	     What incentives are needed to bring providers into the EDI and paperless
       processing environment? What about tax incentives, low or no-cost software, or
       the elimination of the Medicare floor used to pay claims?




                                            7

�	    What needs to be done to ensure that providers adopt a uniform EDI and
      paperless processing environment?

The HCFA Bureau of Program Operations (BPO) is currently studying those
attachments to bills, such as Certificate of Medical Necessity (CMN) forms, that can
be standardized, automated or eliminated. The BPO is also enlisting the support of
national provider organizations and has developed a publicity campaign to promote
the adoption of EDI technology. The BPO has two point-of-service pilot projects
underway and has evaluated a number of innovative proposals for EDI and paperless
processing projects.

Providers who decide to implement new EDI and paperless processing technology will
be faced with incurring four types of costs. These costs are for hardware, software
purchasing or leasing, installation and training, and telecommunication charges. Since
most of these costs are relatively fixed (they exist whether the provider submits one
claim, one hundred claims, or one million claims) and the gross savings accrue on a
per claim or electronic transaction basis (the more claims or electronic transactions
the more savings), overcoming these fixed costs is the principal factor that prevents
low-volume providers from acquiring EDI and paperless processing technology. This
problem is compounded by the fact that a significant number of small providers,
especially rural providers, lack computerized offices. For these providers, investing in
the required costs listed above would probably not be cost effective.

Issues with regard to small providers include the following:

�	     Will small providers, especially rural providers with small Medicare patient
       loads, be required to invest in EDI and paperless processing technology?

�	     What are the costs associated with conversion, installation, and maintenance of
       these systems and can small providers justify these costs? Can small providers
       pool operational costs?

F      What alternatives exist for small providers?

The HCFA BPO is currently taking inventory of all of the low cost software that
Medicare contractors are required to make available to providers. The HCFA
Regional Offices will then determine contractor compliance. The BPO is also in the
process of evaluating a number of pilot projects which are using emerging technologies
in the payment area. Some of these, one example being fax imaging technology, may
be feasible for small providers to use as a cost effective substitute for a complete EDI
and paperless processing system.

The OIG plans to assess how different providers can be brought into the EDI and
paperless processing environment, what barriers exist for providers, and whether
HCFA’S efforts address those barriers and provide proper incentives for providers.



                                            8�
l%e HCFAk Peiqxctive

For the short term, some of the key issues of concern to the OIG are as follows:

�	     What changes have been made in Medicare claims processing as a result of the
       implementation of Medicare national claims formats and electronic funds
       transfer (EFT)?

F	     Have these changes been implemented      successfully, i.e., is there a probability of
       payment errors or fraud?

The HCFA has identified increased electronic media claims (EMC) and EFT as the
primary means for effecting short term reductions in Medicare claims-processing unit
costs.s And, by the end of Fiscal Year 1993, HCFA will have invested over
$21 million in EMC/EFT improvements at the Medicare contractors.

The HCFA as established the following goals for EMC:

F	     Increase the rate of EMC to 100 percent for hospitals and 75 percent for all
       other providers within 3 years.

F	     Increase the rate of EFT for Medicare payment to hospitals to 100 percent
       within 3 years.

F      Increase the overall cost effectiveness of EMC.

These are challenging goals, and we are concerned that, with limited resources and
many other operational issues that had to be dealt with at the same time, HCFA’S
planning and execution to reach these goals may not have been adequate. To address
these concerns, we have initiated a reviewG during which we will determine if HCFA:

F	     Adequately assessed benefits and costs. (The HCFA believes that it will realize
       significant cost savings from full EFT implementation.)




     ‘Based on experience of the health insurance industry as a whole, HCFA believes
that it is $0.50 per claim cheaper to process an electronically submitted claim than a
hard-copy claim. This difference results primarily from data entry of hard-copy claims
into electronic claims processing systems.
        The HCFA believes that even more savings may accrue from EFT and
electronic notice of remittance, rather than payment by check and paper remittance
advice. These savings result primarily from reduced mail room and postage costs.

     “’Electronic Claims Processing - Medicare,” which is currently in the survey phase.


                                            9
F	    Adequately assessed potential risks and vulnerabilities inherent in EMC, EIW,
      and paperless processing. (For example, HCFA does not believe that benefit
      payments made under EFT will be vulnerable to errors and/or fraud because
      the involved EFT parties of the contractors, Medicare banks, and the
      Automated Clearing House operators are bound by strict operating guidelines
      and Federal regulations concerning the initiation, transmission, and receipt of
      EFTs.)

�	    Provided adequate instructions, lead time, and resources to the Medicare
      contractors. (The HCFA has been providing technical specifications,
      procedural guidance, and appropriate funding since 1990.)

F	    Sufficiently track progress during implementation in a timely and effective
      manner to identify problems and resolve them. (The HCFA believes that it has
      been diligent in tracking the progress of contractors, providers, and SMAS in
      implementing EFT.)

We will also determine the degree of success that the Medicare contractors are having
in implementing the changes called for, and reaching the EMC~FT targets set by,
HCFA.

COMPANION TECHNOLOGIES

Smart Cards

Smart cards are wallet-sized, machine-readable cards that contain an integrated chip
(its own computer) which can store an individual’s medical history and other forms of
data. In its simplest form these cards allow access to a health care plan database.
The health care industry continues to rely on identification cards to recognize plan
members. Because of their extensive use, cards in one form or another are here to
stay. As these identification cards become more sophisticated and become smart
cards, the OIG should be concerned about two main issues. These issues are the cost
of the cards and standardization.

The cost of machine-readable cards (equipment and installation) and the necessary
infrastructure (training) to support the cards are certainly major drawbacks to a smart
card system. A smart card system according to WEDI could cost hundreds of millions
of dollars. Should smart cards be used when the less expensive magnetic strip or
swipe card (credit card or ATM model) may contain all the information required?

Smart cards must contain a standard set of information. The issue is the amount of
information required. In order to allow for an efficient electronic access to
information, and the transfer of information between payers and providers, at a
minimum this information must be able to identify the payor and the plan member.
The decision must also be made as to the amount of patient clinical information that
should be put on the smart card. Should patients be required to carry data bases


                                           10

around in their pockets when central computer and communication        networks are a
capable alternative?

Currently, there are several ongoing experiments on the application of card technology
for the health care industry. The States of New York and Massachusetts use the
magnetic strip card with an on-line communications network to monitor eligibility and
utilization for their Medicaid populations. Smart cards are being used to monitor Aid
to Families with Dependent Children, food stamp, and Medicaid populations in
various States.

Even though WEDI does not recommend the use of the smart cards because of its
expense, we still recommend that HCFA look at smart cards (e.g. for use in verifying
electronic signatures) and that HCFA study the results of the above experiments, and
review the experience of States that have used various types of cards in the design of
MTS and the implementation of the computerized patient record.

Computerized Patient Records

In order to be able to make informed health care decisions, policy decisions as well as
clinical, the U.S. health care system needs better access to the information contain in
patient records. This information, now contained in paper-based systems, is often
fragmented, irretrievable, and illegible. The Institute of Medicine (IOM), after
studying this issue for 18 months, has recommended that patient records be computer
based. In addition, the IOM has endorsed the establishment of a private/public
initiative which is to now called the CPRI. The CPRI, formed during the summer of
1991, will be responsible for the initiation and coordination of all work that will
eventually establish the routine use of CPRS in all U.S. health care settings. The
CPRI has formed five committees, and these committees will perform much of the
work which is yet to be done.

HHS involvement in this area to date has consisted primarily of the establishment of
an HHS computerized Patient Records Council to promote and coordinate various
Departmental activities; partial funding of the American National Standards Institute’s
Health Informatics Planning Panel; participation in the deliberations leading to the
formation of the CPRI; participation in the American Hospital Association’s
Workgroup on Computerization of Patient Records and the WEDI; and the
establishment of the HCFA Electronic Environment Steering Committee.

Because the establishment   of the use of CPRS is still in its conceptual phase, various
issues face the OIG:

�	     What are the benefits and the costs of the computerized patient record? The
       OIG should determine if a proper cost/benefit analysis has been performed to
       ensure, as best as possible, that CPRS will not only be useful and accessible, but
       also not so prohibitive that providers will not be able to afford their installation.



                                             11

F	    What is required to guide the development of electronic clinical information or
      CPRS? What is needed to insure a uniform standard data set, definitions, and
      format? What needs to be included in patient records and which models of
      CPRS should be adapted? Will HCFA rely entirely on the CPRI to develop
      the standards? The OIG should be concerned that the Department have a
      place in the CPRI and that the Department give input at the early stages of the
      development of the CPR.

Leadership by HHS in the area of CPRS is particularly important because of the
implications for:

�	    The Peer Review Organization (PRO) and SuperPRO activities relating to
      hospital utilization in Medicare.

�     Utilization review activities of Medicare carriers.

�     Utilization review activities of the States in their MMIS.

F	    Provider level interface with future health information systems at the State and
      Federal level.

In the future, the OIG will monitor the results from the work that is being performed

by the five committees. In the mean time, we plan to address the issue of

computerized patient records in the context of our ongoing review of MTS, upcoming

review of MMIS, and a planned review of internal systems controls at the PROS.


THE NEED FOR A COHESIVE STRATEGIC SYSTEMS PLAN COVERING EDI


In a prior report7, we indicated that Medicare contractor systems and Federal

Medicaid data initiatives were not being addressed in HCFA’S information resources

management (IRM) program; HCFA had not sufficiently assigned duties to, or assured

the independence of, its Principal IRM Official; and the Department had not

sufficiently monitored HCFA’S IRM activities. Furthermore, neither we nor GAO

have been able to discern any comprehensive strategy on HCFAS part related to how

Medicare and Medicaid will move into an all-electronic environment.





    7“Review of the Health Care Financing Administration’s Implementation of the
Project to Redesign Information Systems Management,” A-14-91-02533. At that time,
HCFA had elected to move forward with a strategic planning initiative to streamline,
consolidate, and integrate Medicare and Medicaid claims processing, including EDI.
This initiative had critical goals and objectives to standardize systems, provide
appropriate incentives, and utilize companion technologies.


                                            12
Meanwhile, however, private sector initiatives in the area of EDI standards and
investment in private sector EDI networks and systems continues at an accelerating
pace. These efforts are, in large measure, being driven by the Blue Cross/Blue Shield
Association and its member plans, large commercial insurance companies, and
commercial clearinghouses and data processors. Each of these parties is pursuing an
EDI strategy based primarily on business concerns, and particularly market share. At
the same time, numerous legislative proposals are being offered in conjunction with
health care reform that would dramatically affect how EDI for health insurance
information would be structured and operate in the future.

Without a viable Departmental    strategy for channeling future EDI developments, we
are concerned that:

�	    Medicare and Medicaid may not be able to make the most effective use of
      emerging EDI technology.

�	    The proliferation   of EDI systems in the public and private sectors may
      accelerate.

�	    Reductions in administrative costs per claim may not be achieved to the degree
      now anticipated. And, issues similar to that of conflict of interest now faced in
      dealing with Medicare and Medicaid secondary payer issues will remain
      unresolved.

We plan to address some of these issues in our ongoing review of MTS and related
HCFA EDI initiatives. And, we plan to re-examine the efficacy of HCFAS strategic
systems planning process as one of a series of reviews of HCFA’S IRM programs




    8“Review of General Systems Controls at HCFA - Phase I“ planned for completion
by the end of FY 1995.


                                           13
POLICY IMPLEMEhYATION

The implementation of new EDI and paperless processing systems, in particular,
carries with it questions regarding trustworthiness and reliability of data as they moves
from one partner in electronic commerce to another and from one process to another.

Specific questions raised with regard to electronic submission and processing of claims
include:

F      Confidentiality and privacy of patient records.

F      Internal controls.

�     Audits and certification.

F      Contractor conflict of interest.

F      Valid contracts.

�	     Legal use of information submitted, stored and processed by new systems,
       including provider agreements, chain of custody, attestation and originator
       authentication, and the need for paper trails.

CONFIDENTIALITY             AND PRIVACY OF PATIENT RECORDS

Any EDI and paperless processing system will need to ensure that the confidentiality
of personally identifiable health insurance data be strictly maintained and the privacy
of patients be maintained. This area is made complex because traditionally the legal
requirements covering privacy have been addressed on the State level with each State
being unique. This is further complicated because providers and payers are subject to
different sets of rules, with additional variation among types of providers.

The obligation that a provider must maintain the confidentiality of a patient’s health
insurance data is defined by statue, common law, and professional ethics. It is the
same whether the transmission and storage of this data is paper or electronic. The
very reason that providers changed from the more cumbersome paper records to the
more efficient EDI and paperless processing systems is the same reason that makes
these systems more vulnerable. While EDI and paperless processing allows for more
sophisticated security protocols, once these protocols are breached, it allows for a very
efficient method of conducting an unauthorized transmission and review of
confidential health insurance data.

Because payers are required to release health insurance data to various sources,
especially medical information, they must follow many conflicting legal requirements
covering disclosure. This disclosure may be for claims adjudication and payment,


                                             14
research, third party administration and utilization review, and audits. EDI and
paperless processing must allow for these myriad of disclosures while protecting the
privacy of the patients.

Two issues before HCFA in the areas of confidentiality and privacy are:

�	     What is required to ensure that all electronic health information remains at the
       required level of confidentiality?

F	     Have standards been established and have these standards been incorporated
       into legislation and systems development?

Although HCFA feels that the system security technology available at this time is
more than adequate, we have little information to prove that this will be true into the
future. The Privacy Act of 1974, 5 U.S.C. Section 552a, is the primary provision
governing HCFA on the release of confidential health insurance data. On the
provider side, the American Medical Association’s Principles of Medical Ethics
requires that physicians safeguard confidential patient information within the
constraints of the law.

Confidentiality and the Privacy Act will be areas that HCFA must address in the
concept development and design phases of MTS and other EDI and paperless
processing systems. We will be looking at HCFA’S treatment of the issues of privacy
and confidentiality as part of our ongoing reviews of EMC/EFT implementation and
MTS and in our future reviews of MMIS and PRO systems internal controls.

INTERNAL     CONTROLS

Section 2 of the Federal Managers’ Financial Integrity Act (FMFIA), among other
things, addresses the adequacy of management controls over operations and specific
requirements for controls to safeguard assets against waste, fraud, and abuse. The
OMB Circular A-123, “Internal Control Systems,” prescribes policies and standards for
executive departments to implement Section 2 of the FMFIA by setting up,
maintaining, testing, improving, and reporting on internal controls in their program
and administrative activities. Also, each agency is required to report any material
weaknesses in the agency’s systems of internal controls and the planned actions for
correcting such weaknesses.

We have had concerns with HCFAS application of FMFIA with respect to Medicare
contractors because it has not performed reviews sufficient to assure itself that the
Medicare contractors have adequate internal control systems. Our position has been
and continues to be that we are concerned with the lack of review of contractor
controls under the FMFIA and in the future this could impact on the positive
assurance with respect to FMFIA that HCFA is expressing to the Secretary of HHS.
Furthermore, various Medicare contractors have previously taken the position that
their EMC departments are proprietary and should not be the subject of audits.


                                           15
The HCFA acknowledges that the adequacy of HCFA’S management controls over
operations is an ongoing issue between HCFA and OIG and is the subject of extensive
reviews by OIG. We believe that this issue exists due to HCFA and OIG having
different philosophy and ways of performing internal control reviews. However,
HCFA is aware of the importance of internal controls and evaluation activities in the
area of EDI and welcomes the OIG’S additional thoughts or recommendations that
would strengthen its operations.   Furthermore, HCFA is currently developing a plan
to review the internal controls and systems of contractors for compliance with the
FMFIA. Because these reviews have not taken place, it is unknown whether adequate
controls do exist. Absent reviews of internal controls, no material internal control
weaknesses have yet been reported. Consequently, the degree of trustworthiness and
reliability of Medicare contractor systems in general, and especially their EMC/EFT
systems, is a significant concern.

During the course of our ongoing review of HCFA’S implementation to date of EMC
and EFT in Medicare, we will evaluate the sufficiency of internal controls over
Medicare EMC/EFT processing. Our objective is to determine the level of reliability
of claims data and accountability of providers. We will obtain and analyze all Federal
policy requirements relating to HCFAS application controls over Medicare electronic
billing and payment. We will identify any deviations between HCFA’S current set of
controls and these Federal requirements. And, we will develop and analyze an
applications controls matrix to identi~ high risk areas. Then, we will use the results of
this analysis to determine if HCFA has noted any deficiencies and taken action to
address them.

AUDITS AND CERTIFICATION

In the past, most audit interest has been focused on the main line processing systems
at the Medicare contractors where most of the claims were received in paper form,
keyed into electronic formats, edited, and processed through payment. With Medicare
EMC being used for claims submission of an ever increasing percentage of claims and
with increased use of EFT and electronic remittance notices (ERN) for payment,
greater focus must be placed on systems at the provider level. Also, intermediaries
and carriers typically use the same departments for Medicare EMC/EFT/ERN as they
do for support of their “private side” operations. While these departments may not
have been the focus of prior audit work because of the proprietary nature of their
activities, they must be included in future work because their activities are integral to
Medicare claims processing.




                                            16

Contractor Audi&

The Medicare contractors are responsible for assuring that claims submitted from
providers areaccurate and justified. This responsibility extends to insuring that
provider-based systems used to submit claims electronically operate in a manner
consistent with HCFA policies and instructions and in accordance with any additional
requirements established by the servicing Medicare contractor.

In the claims processing market today, there are a variety of provider-based systems
and external clearinghouses that may be used for EMC. Installation and operation of
these systems at the provider level, however, is the responsibility of the individual
provider. To fulfill their responsibilities, therefore, Medicare contractors need to
ensure that provider-based systems not only operate as intended, but also are
governed by sufficient internal controls to assure adequate system and data security,
system backup, and availability of supporting documentation.

Because of the large number of low-volume Medicare providers (e.g., individual
physician practices), the wide range of systems that providers may use and the variety
of environments in which the providers operate these systems, the resources needed by
the Medicare contractors to audit provider-based EDI and paperless processing
systems on a 100 percent basis are likely to be prohibitive. Furthermore, our ongoing
reviews of Medicare contractors suggest that funding for basic payment safeguard
activities is so limited that the adequacy of selective audits of provider systems by their
servicing Medicare contractors is problematic.

Our primary concern, therefore, is the appropriateness of the criteria used by the
Medicare contractors to select specific provider systems for audit and how well such
audits are coordinated with other contractor activities requiring on-site reviews at
provider locations.

This issue is not being addressed specifically as an objective in our ongoing review of
EMC/EFT implementation in Medicare. Rather, it will be addressed in the context of
the compliance by the Medicare contractors with HCFAS requirements affecting
EMC/EFT in the areas of

F      The solicitation and maintenance   of provider attestations and certifications.

F	     The issuance of instructions to providers on record keeping in support of claims
       submitted.

F      The establishment   and maintenance    of Medicare fraud and abuse programs.




                                             17

Interim Certification

As noted above, the resource requirements to audit provider-based systems are likely
to be so substantial that any audits of these systems by the Medicare contractors is
problematic. The issue of systems certification, therefore, increases in importance.

Systems certification is recognized in HCFA’S EMC strategy as a tool for providing
some assurance that electronic billing systems used by providers meet basic industry
and government standards. The HCFA has already established a two-tier list of
sources for EMC packages: one list for sources meeting basic requirements; the
other, a “select” list meeting more stringent requirements. There is no requirement,
however, that providers use only those sources on the “selected” list.

Furthermore, many providers use external billing services and/or claims clearinghouses,
either in conjunction with, or instead of, provider-based EDI and paperless processing
systems. The HCFA does not appear to have addressed how such sources should be
certified, either individually or in conjunction with any systems which the providers
may use in conjunction with them.

As part of our ongoing review, we will obtain and analyze sufficient information to
determine whether the maintainers and operators of EMC/EFT systems used in
Medicare are in compliance with HCFAS requirements for systems certifications and
testing.

Bogram Safeguarh

As Peter Weiss, a governmental expert on EDI, noted in a recent paper,9
trustworthiness and reliability of EDI systems are criteria critical to ensuring the
suitability of electronic data as evidence in a court of law. Also, conformance with
Federal requirements for systems security (including the Computer Security Act,
Privacy Act, and OMB Circular A-130 systems security requirements) with respect to
data and access security is essential if EDI systems are to be certified as “trustworthy
and reliable.”

This issue is being addressed as a specific objective of our ongoing review of
EMC/EFT in Medicare. We will determine whether the EMC/EFT systems
maintainers and operators are in compliance with HCFAS requirements in the areas
of access and data security as well as the system. We will also review HCFAS
requirements for, and contractor’s compliance with procedures to identi& those who



     9 “Security Requirements and Evidentiary Issues in the Interchange of Electronic
Documents: Steps Toward Developing a Security Policy” presented at the Workshop
on Security Procedures for the Interchange of Electronic Documents, National
Institute of Standards and Technology, November 12-13, 1992.


                                            18
input data, as well as those who use the data. We will likewise determine if HCFA’S
requirements are adequate and are being complied with for periodic certifications and
maintenance of a chain of custody as the data move from user to user are adequate.

Compliance w“th C&u.lar A-127

The OMB Circular A-127 addresses compliance with Section 4 of the FMFIA and
includes requirements for reviews of systems which collect, process, and use financial
data. Recently, this circular has assumed greater importance because it is one of the
primary sources of criteria for determining whether an agency’s financial systems can
provide reliable data for use in preparation of financial statements, as called for under
the Chief Financial Officer’s Act.

In Medicare, among the data most critical to financial management are claims and
claims payments; however, HCFA, to date, has not included Medicare contractor
systems in the scope of their financial systems reviews program because these systems
do not feed data directly into HCFA’S general ledger accounts. Thus, the extent of
compliance of EMC/EFT systems at the Medicare contractors and EDI and paperless
processing systems at participating providers with the criteria for reliability of financial
data established under A-127 is uncertain, at best.

This issue is being covered in part by our ongoing review of MTS and related EDI and
paperless processing initiatives. This review will address whether the HCFA has an
overall strategic plan for the development and implementation of the proposed MTS
and the migration to increased use of EDI and paperless processing. And, if HCFA
does have such a strategy, we will determine the degree to which this strategy is based
on analyses called for under OMB Circular A-127 (financial management), as well as
under OMB Circular A-123 (internal controls) and A-130 (IRM/systems security).

CONTRACTOR CONFLICI’ OF INTEREST

The HCFA and the OIG have become aware of allegations that certain contractors
refuse to cooperate with some billing services which wish to submit Medicare claims
electronically. The HCFA has forwarded instructions to the contractors requiring that
third party software be made available to the providers. Compliance with these
instructions still needs to be tested.

Even though this area was studied in an OIG Management          Advisory Report dated
July 1992, the following issues will need further review:

�	     Are Medicare contractors selling EDI and paperless processing systems
       (hardware and software) with an unfair competitive advantage and therefore in
       violation of antitrust law?




                                             19

F	     Is there a conflict of interest with the contractor marketing EDI and paperless
       processing systems to providers and then being requiredto audit and look for
       problems in these systems?

The OIG has performed alimited reviewof four Medicare contractors (three

intermediaries and one carrier).l” This review found that the four contractors

appearedto comply with the requirements of Transmittal 1507 regarding the

timeliness with which contractors fill requests for lists of edits. It found that the three

intermediaries refused to accept direct computer-to-computer       EMC submissions for

their private line of business unless the provider uses their subsidiary’s software for the

transaction. Finally, it found that the practice of requiring billing services and health

care providers to use the contractors’ for-profit subsidiaries may violate Federal

antitrust laws.


Because the growth in the use of EDI and paperless processing, its emergence as a

major issue in health care reform, and the involvement of Medicare contractors in

proprietary market-driven ventures, the OIG needs to pursue the conflict-of-interest

issue. We will address Medicare contractor compliance with HCFA’S current EMC

instructions as part of our ongoing review of EMC/EFT implementation in the

Medicare program. We plan to address the longer term issue of contractor conflict of

interest in our review of MTS and related EDI and paperless processing initiatives,

and as part of our continuing work in the area of Medicare secondary payer,


VALID CONTRACT’S


In order to be able to create valid contracts under EDI systems, payers (including

HCFA) and providers must recognize that information that is created, transmitted, or

stored in electronic form does satis~ the legal requirements regarding a written

signature the same as information that is recorded on paper. But, they must also

recognize that appropriate security techniques, practices and procedures must

incorporated into EDI systems before electronic contracts can be considered valid.


The GAO has addressed this issue in their December 13, 1991 decision memorandum,

“National Institute of Standards and Technology -- Use of Electronic Interchange

Technology to Create Valid Obligations.” The GAO prepared this memo in response

to a request by the Computer Systems Laboratory, National Institute of Standards and

Technology (NIST). The NIST asked GAO if Federal agencies can use EDI

technologies, such as message authentication codes and digital signatures, to create

valid contracts consistent with 31 U.S.C. Section 1501. Section 1501 establishes the

criteria for recording obligations against the government. The GAO concluded that

government agencies can create valid obligations by using EDI systems which meet

NIST standards for security and privacy.




    10Management Advisory Report, “Electronic Media Claims and Contractors’ For
Profit Subsidiaries,” OEI-12-91-O141O, July 1992.


                                            20
A remaining question in this area is whether EDI systems being used by the Medicare

contractors and the providers meet the NIST standards for security and privacy. We

will determine the degree of compliance of current and planned Medicare

requirements with NIST standards as part of our ongoing reviews of EMC/EFT and of

MTS and related EDI initiatives.


LEGAL USE OF INFORMATION SUBMITI’ED


l+ovider Agreernen&

The integrity of the Medicare and Medicaid programs depend upon monitoring the
submission of claims and ensuring provider accountability. Consequently, this issue
affects OIG investigations and prosecutions of suspected fraudulent or abusive
providers. Clear and uniformly enforceable provider agreements are necessary in
order to hold providers personally responsible for every claim submitted and to
provide sufficient evidence for prosecution of fraud.

Two recent court cases provide evidence that provider agreements may well become
an issue in future court proceedings. In United States v. Mostaan, the defense
claimed that the computerized claims lacked proper certification that the provider
submitted claims only for services actually rendered by provider or an employee under
the provider’s supervision. The Government survived a defense motion for acquittal.
In United States v. Lofton, the Government could not introduce medical records
because of another certification problem. The case was eventually dismissed by the
Court on other grounds.

The volume of claims involved in EDI applications such as Medicare EMC means that
there may not be any certification by a provider that he or she has rendered services
submitted for reimbursement.     If provider agreements do not have uniform form and
content, program integrity will be jeopardized and cases will be difficult to prosecute.

According to a HCFA memorandum on EMC (written in July or August 1992), in
order to submit claims via electronic media, a provider must first receive Automated
Claims Input Authorization. This requires the provider to sign an agreement with the
contractor. Any agreement signed between the provider and the contractor must
establish clear guidelines for the handling of claims, as well as the assumption of
responsibility for the completeness, accuracy and truthfulness of all claims submitted
via electronic media.

The memo indicated that HCFA has not yet standardized provider agreements, but
has established guidelines which have “standard key elements” for agreements (Blue
Cross/Blue Shield Medicare Agreement was attached as a model, but is a 1984 form).
No certification of accuracy or statement of liability is required.
The HCFA memo stated that most agreements require the provider to maintain all
original source documents and medical records pertaining to any particular Medicare
claim for at least 6 years following the month of payment.

The HCFA welcomes the OIG’S review of the standard EMC agreement currently
being developed by HCFA. The OIG plans to review provider agreements and
determine if they are adequate for ensuring accountability. This includes the
responsibilities of all parties in the EDI environment and the ownership of and
responsibility for Medicare and Medicaid data at each point in the data flow.

chain of Cl@@

Prosecutors must prove who had custody and control of claim documentation at each
step of the billing process in order to successfully prosecute providers for fraudulent or
abusive claims. A valid “chain of custody” will establish who was responsible for
generating and storing electronic records. Record custodians must be able to account
for each link in the chain of events involved in producing the records. Should the
Government fail to meet this challenge, it likely will be unable to introduce critical
evidence.

According to the HCFA memo, no audit requirements exist for reviewing
documentation, validation, or electronic transmission flows; nor for reviewing screens,
edits, or internal controls. No requirements exist for assessing system securi~, nor for
reviewing cases for semice appropriateness, or for analyzing charges and costs for
services provided.

The memo indicated that (at least as of mid-1992) audits are not conducted for bills
submitted electronically. The HCFA requires an annual “verification” for Medicare
Part B EMC. However, with approved plans, contractors may extend the annual cycle
for verification of provider records. The standards require that the contractor review
a random sample of one percent of provider-submitted EMC. The verification is
narrow in focus. The purpose of the review is to establish that documentation for
EMC is on file and is equivalent to that provided on a hard copy claim (a patient
record exists, patient and physician signatures are on file, and other support
documentation is available).

Based on the above information, the audit requirements do not ensure that a valid
chain of custody has been maintained at each step in the system.

As the HCFA paper recommended, some procedures should be developed to identify
each individual systems operator to avoid diffusion of responsibility, thereby making it
easier to hold a particular provider accountable. Furthermore, stringent audit
requirements should be developed to mandate review of internal controls and systems
security.




                                            22

Adequate systems safeguards are necessary to ensure that data is not misused or lost,
and that unauthorized persons cannot access it. Since the sensitive information
involved in EDI and paperless processing is subject to considerable fraud and abuse, it
must be properly protected to ensure provider accountability and thus be useful to
investigations and prosecutions.

Attestation and &“ginator Authentication

Attestation and originator authentication must be established to show provider
accountability and thus are important evidentiary items in investigations and
prosecutions of suspected fraudulent or abusive providers. Technological advances
may create new efficiencies in this. Among the issues of interest to the OIG are:

F	     Are there better methods to verify “attestation” (i.e., acknowledgment of a
       submission by a provider) or “originator authentication” (i.e., assurance that the
       source of the message is the named originator and not some other entity) when
       using personal identification numbers (PIN)?

�	     Has EDI technology advanced far enough to allow HCFA to consider
       fingerprinting (electronically read thumb prints) and retina scanning as forms of
       electronic signatures?

As part of its review of provider accountability, the OIG will assess whether Medicare
and Medicaid systems allow for proper attestation and originator authentication.

Maintaining Audit Zlaih

Lack of hard copy Medicare claims may adversely affect OIG’S ability to establish

provider accountability (i.e., who submitted what claim and when, who received the

claim, and whether the claims accuracy can be verified). Without the necessary

documentation, the Government will be unable to prove fraud or abuse since a

provider may contend that “I never reviewed the claim data.” Unless providers are

required to retain hard copy of claims,

meaningful review which ensures provider accountability may not be possible. On the

other hand, retention of hard copies of claims may negate or reduce some of the

benefits of moving to electronic submission of claims.


A regulation issued by the National Archives and Records Administration,

“Requirements for the Management of Electronic Records,” 36 CFR Part 1234, states

that electronic records may be admitted in Federal court proceedings if trustworthiness

is established. Some of these requirements should be incorporated by HCFA to help

ensure that EMC data will be admissible in Federal Court.


Further, it is generally recognized that the need for accounts reconciliation, periodic

audits, and recovery from emergency/disaster situations in an EDI and paperless

processing environment, where no paper records maybe generated, necessitates the



                                            23
establishment of a suitable electronic audit trail. With respect to Medicare
EMC/EFT/ERN, specific requirements for this audit trail should be based on
considerations of legality (e.g., covering time frames consistent with the statue of
limitations), audit cycles, structure of the overall Medicare claims process (i.e.,
consideration of the number of separate internal control areas), and technology (e.g.,
electronic media can experience degradation of data quality after no more than 2-3
years of storage without use).

In the course of our work in reviewing implementation of EMC/EFT in Medicare, we
will determine whether the EMC/EFT maintainers and operators are in compliance
with HCFA’S requirements for audit trails and related processing controls, as well as
with requirements covering instructions to providers on record keeping to support
claims submitted.




                                           24

                            CONCLUSIONS

BASIS FOR REPORT

This report    is in response to the Health Care Financing Administration’s (HCFA)
briefing for   the Office of Inspector General (OIG) personnel on electronic data
interchange     (EDI) and paperless processing issues and its request for more
information     on the OIG’S concerns and plans.

ISSUES

This document has identified numerous issues and goals related to HCFAS use of
EDI and paperless processing technology. Issues related to the overall strategy of the
EDI and paperless processing initiative concern the development of systems such as
the Medicare Transaction System, and the further development and use the Medicaid
Management Information Systems, and the point-of-service claims management
systems under Medicaid. These systems will allow HCFA to process electronically
submitted claims and manage information more efficiently. In order to facilitate the
electronic flow of claims, patient, and reimbursement data between providers, payers,
and quality-of-care reviewers, HCFA must require standardization. To encourage
providers to submit claims and patient data electronically, HCFA must eliminate not
only barriers to provider participation, but also develop incentives. Various
companion technologies, such as smart cards for computerized patient identification
and medical records, and national data communications networks for transmission of
health care data, will need further development. Additionally, HCFAS overall strategy
must encourage HCFA’S information resources management program to address
Medicare contractor systems and Federal Medicaid initiatives.

This document also raises issues regarding the trustworthiness and reliability of data as
it moves from one partner in electronic commerce to another and from one process to
another. Issues raised with regard to electronic submission and processing of claims
include the requirement that the confidentiality of personally-identifiable health
insurance data be strictly maintained and the privacy of patients be protected. In
order to address the adequacy of management controls over operations and specific
requirements for controls to safeguard assets against waste, fraud, and abuse, internal
controls must be reviewed. Audits and the systems certifications must be performed
to ensure that all EDI and paperless processing systems are trustworthy and reliable,
and that there is no Medicare contractor conflict of interest. For electronic contracts
to be valid, they must be in compliance with the contract requirements of the NIST.
Finally, HCFA must ensure the integrity of information, through the use of provider
agreements, a valid chain of custody, attestation and originator authentication, and
proper audit trails.




                                            25

FUTURE ACTION

Because of the large number of issues and the our limited resources, we cannot
possibly examine nor audit all of the issues related to EDI and paperless processing.
As part of our oversight function, we plan to analyze all of the various issues listed
above for the purpose of preparing our workplan over the next few years. We also
recognize that HCFA has particular concerns about making its systems environment
less susceptible to fraud and abuse and about the development of approaches for
increasing small provider participation in the EDI and paperless processing
environment. With respect to fraud and abuse, we are currently in the survey phase
of reviewing electronic controls in the Medicare program and with respect to small
providers, we are planning to study incentives for and barriers to small provider
participation in EDI and paperless processing.

AGENCY COMMENTS
The Health Care Financing Administration (HCFA) commented on a draft version of
this report. The HCFA suggested changes in the report to better reflect its activities
and those of the Department with respect to EDI and paperless processing, made
suggestions about the focus of OIG’S work in this area, and gave us technical
comments. We have revised our report to address many of HCFA’S comments and
also provide additional comments on HCFA’S response in Appendix B. The full text
of HCFA’S comments can be found in Appendix A.




                                             26

             APPENDIX          A
HEALTH CARE FINANCING ADMINISTRATION   COMMENTS
                                                                                           Health Care
    /’-        “,
.
�



<          &          I) APARTMENT OF HEALTH & HUMAN SERVICES                              Finarwng Adm:ntatr-



                                                                                           Memorandum

                     DEC29*
                     Bruce C. Vlade~
                     Administrator   ~l&@+
          Subject	
                     Office of Inspector Generai (OIG) Draft Repo~      “Electronic Data Interchange:
                     Issues and Challenges” (OEI-12-93-OO080)
          To
                     June Gibbs Brown
                     Inspector General


                     We reviewed the subject draft report on electronic data interchange   (EDI) issues.

                     OIG does a credible job in identifying the enormous number of issues, potentia.i
                     problems and tasks confronting the Federal governrnen~ and the Health Care
                     Financing Administration (HCFA) in particular, in moving to a more fully automated
                     environment.   We are well aware of the monumental task facing HCFA with the
                     implementation of ED I. We appreciate and share OIG’S concerns regarding EDI and
                     believe OIG has an important role in its development and implementation.    We l~k
                     fortvard to working with OIG in this process. Our comments are attached for your
                     review.

                     Thank you for the opportunity to review and comment on this draft report        Please
                     advise us if you wish to discuss our response.

                     Attachment
           Comments of the Health Care Financin~ A dministration (HCFA~
              on the Office of Inmector General (OIGl Draft Reoox-c
          . .  “Electronic Data Interchange:   Issues and Challenges”
                                 (OEI-12-93-00080\


General Comments

OIG clearly demonstrates that it understands our goal of evolving Medicare and
Medicaid into an all-electronic environrnen~ our pktns for achieving this goal, and the
barriers that must be crossed before this goal can be realized. However$ the report
implies that the Department of Health and Human Services (HHS) has not taken a
leadership role in the development of computetid     patient records. On page 2 of the
Introduction and page 10 of the Companion Technologies section, for example, the
report does not fully acknowledge HI-M’ leadership in this area. We think that the
report should be revised to reflect the following:

      Establishment of an HHS computerized Patient Records Council to coordinate
      various Departmental activities and promote HHS leadership in the
      development of computer-based patient records systems. The council has met
      twice and wiil presumably be the focus of HHS activities in this area in the
      future.

-      Partial funding, through the Agency for Health Care Poliq and Research, of
       the activities of the American National Standards tititute’s Health Informatics
       Planning Panel (HISPP). The HISPP is coordinating various standard setting
       efforts in the area of health informatics. SUChcoordination is essential to the
       development of useful computerized patient records.

       Participation in the deliberations   leading to the formation of the Computerized
       Patient Records Institute.

-      Participation in the American Hospital Association’s Work Group on
       Computerization of Patient Records. The work group was formed at the
       request of former Secretary Sullivan and recently released its draft report to
       Secretary Shalala.

.      Establishment of a HCFA Electronic Environment Steering Committee and
       participation in the Work Group for Electronic Data Interchange (WEDI) and
       the American National Standards Institute (NSI),   to develop and implement
       standardization not oniy between Medicaid and Medicare, but between these
       programs and all other health care insurers.
Page 2

We believe.~e definition of electronic dam ~terchange (EDI) is not fully set forth in
the report. AS sated in the introduction, EDI is the electronic transfer of data, in a
standard fol-ma~ between trading partners. It should be made clear that EDI relates
only to the data that are output from an applications system, e.g., a provider’s billing
system, and how those data are transported to another applications system, e.g., a
contractor’s claim payment system. ED1 does not apply to how that applications
system actually processes the data.

h addition, we believe OIG would be far more effective and helpful to HCFA by
focusing its resources on those issues impacting most directly on the potential for
fraud and abuse in the Medicare and Medicaid progrms (i.e., certifications,
accountability, controls, integrity, confict of interes~ contracts, legal use of
information, audit trails, and audits). We would we]come OIG’S recommendations
relative to potential fraud and abuse issues.

Also, we believe O IG has an important role to play in reviewing the sufficiency of our
safeguards designed to ensure proper paymen~ We weicome OIG’S review of the
standard Electronic Media Claim (EMC) agreement currently being developed. This
standard agreement will detail the responsibilities of all parties in the EDI
environmen~ and specify the ownership of and responsibility for Medicare and
Medicaid data at each point in the data flow.

Finally, we suggest that OIG, in a separate repo~ develop tie issue of small provider
conversion to EMC/electronic funds transfer (ET.          Once EDI reaches a “criticd
mass,” the continued use of manual paper data systems will become increasingly
inefficient. In developing incentive or cost-subsidtition    programs for small providers,
consideration shouid be given to the burden and cost they will create for HCFA if
they do not interface with HCFA’S electronic system.

The following comments are being offered under the designated headings reflected in
the Issues section of the repow.

POLICY DIRECTION

Medicare Transaction Svstem (MTS): At the present the, MTS has not addressed
the issue of smart card technology. The basic methods of a~ess and entitlement
verification are still being reviewed. Medicare and Medicaid program staff have
attended the technical advisory group (TAG) meetings of WEDI. WEDI
recommended moving away from expensive smart card technology to the use of the
data base. This recommendation did not require that users opt for a plastic card for
identification. This TAG suggested that we study the use of computerized patient
records in our medical review activities.
Page 3


Medicaid P6iht of Service (POS~ Claims Management Smtems: As noted in our

comments on a prwicms OIG repo~ (Point-Of-Service Claims Management Systems

for Medicai& OEI-01-91-00820, May 1992), we are fully committed to improving the

efficiency of the State Medicaid Agency (SMA) Medicaid Management information

Systems operations through standardization and tie use of electronic technology.

Since this OIG report was issue~ eight SNIAs have reported implementation of POS

systems for pharmacies (including six systems with utilization review capability) MM

three of these systems being expanded and made available to providers other than

pharmacies. Ten additional SNlk are currently developing POS modules for

implementation by the end of calendar year 1993, and 21 of the remaining 33 SW

are considering the development and implementation of POS modules for completion

by late 1994.


THE NEED FOR A COHESIVE STRATEGIC SYSTEMS PLAN COVERING EDI


HCFA is moving forward with a strategic planning initiative to streamline, consolidate,

and integrate Medicare and Medicaid claims processing, including EDI. Stidiirbg

of systems, providing appropriate incentives, and utitig  companion technologies are

critical goals and objectives of this initiative.


POLICY IMPLEMENTATION


Internal Controls on EDI: This is an ongoing issue between HCFA and OIG

regarding the adequacy of HCFA’S management controls over operations and the

subject of extensive reviews by OIG. We perfo~ reviews deemed sufficient to ensure

that the Medicare contractors and SMAS have adequate internal controls. In the

course of our oversight activities, we review many of the procedures and processes

(i.e., internal controls) followed by the contractors. These oversight activities are

performed by both central office and regional office staffs. We perform reviews that

are formal and repetitive in nature, and which are used to evaluate performance.

There are many other reviews and contacts that are less formal which arise to address

specific issues. In both cases, HCFA is aware of the importance of internal controls

 and evaluation activities in the area of EDI.


 Data Safeguards: Any electronic data exchange system must safeguard access to the

 system itself in order to protect the data within. This requires us to identify those who

 input da@ as well as those who use the da~ and it also requires periodic

 certifications and maintenance of a change of custody as the data move from user to

 user.

Page 4

In both of the above area% HCFA is aware of the importance of internal controls and
evaluation ~ckvities in the area of EDI. We welcome OIG’S additional thoughts or
recommendations that would strengthen our operations.

Electronic Funds Transfer (EF17 : On page 8, The HCFA Perspective, OIG expresses
concern about the changes that have been made in Medicare claims processing as a
result of the implementation of Medicare nation~ claims formats and EFT. The EFI’
systems modifications were made by HCFA’S standard system maintainers and
consisted primarily of installing the capability to initiate EFI’ with the Medicare bank.
This function required system programming and liaison activities with the Medicare
bank to ensure the establishment of proper Em transmission protocols.

Since contractors initiate 13Ts and send these transmissions through the Medicare
bank (the Automated Clearing House (ACH)), and ultimately to the provider’s bank
evexy precaution has been taken to ensure the accuracy and integrity of each
electronic payment transaction. The contracto~ Medicare ban~ and ACH operators
are bound by strict operating guidelines and Federai regulations concerning the
initiation, transmission, and receipt of EFI’s. The benefits accounting and reporting
functions that occur with E17 transactions mirror those that currently exist under the
checks paid method of advancing funds under the Letter of Credit system. Therefore,
we do not anticipate that benefit payments made under EF’I’ will be vulnerable to
errors and/or fraud.

Suecific Comments

Page 9, second bullet point:

         HCFA’S goal is to increase the rate of Em   for Medicare payments made to
         hospitals to 100 percent within 3 years.

HCFA is currently reviewing public comments received in response to BPO-104-PN
which was published on January 1S. This notice proposes to require hospitals to
submit all inpatient and outpatient bills electronically and to receive payments and
remittance advices electronically. In response to the many comments urging HCFA to
extend the implementation timeframe for BP()-1()4.PIN, we anticipate that hospitals
will be given at least 6 months from the date of publication of tii final notice in which
to comply with its requirements.   We anticipate that the final version of this notice will
be published no sooner than early in fiscai year 1994.
Page 5

Page 9, fourth-bullet   point:

         OIG will determine      if HCFA adequately assessed benefits and costs.

The full benefits of EMC and EFl” are to be actieved in an integrated anti fully
interactive claims submission and payment entionmen~        Our estimates of the benefits
and costs of En have always been wn~rvatie         and are predicated on the fact that
EIW among physicians and suppliers will be implemented at a much slower rate than
with institutional providers. Because of the relatively low volume of payments made
to institutional providers we have yet to realize si~fiat    cost savings from EFT
usage. We anticipate that as the technology spreads throughout the entire provider
community, cost savings will increase dramatically.

In a recent OIG repo~ Electronic Funds Transfer for Medicaid Providers,
OEI-01-91-00821, OIG recommended that HCFA ~ist States in developing billing
agreements for providers who use electronic c1aimq remimce        advisorie$ and funds
transfers; and to develop guidelines for provider participation in Em. OIG agreed to
consider conducting an inspection or audit on tie benefits and costs of EFI’ to help
HCFA develop guidelines for States.

Page 9, fifth builet point

         OIG will determine if HCFA provided adequate        i.nstruction~ lead time, and
         resources to the Medicare contractors.

In early 1990, HCFA began exploring Em technology for tie Medicare program.
Em soon became a critical component of HCFA’S co~itrnent          to establishing a
totally electronic billing and payment environment for all Medicare contractors and
providers. HCFA provided technical specification% procedural guidance, and
appropriate funding throughout the implementation of ~.       T& SUpport continues
as increasing numbers of Medicare providers elect to receive payments via EITI’.

Page 9, sixth bullet point:

         OIG will determine if HCFA is tracking progress during implementation
         sufficiently to identify problems and resolve them effectively and in a timely
         manner.

 HCFA has been quite diligent in tracking the progress of contractors, providers, and
 SMAS in implementing EFT. Staff has worked in conjunction with the contractor
 community throughout the implementation process. HCFA circulated draft contractor
 instructions for several months prior to their effective date to ensure that all concerns
 were taken into consideration in the final product. All problems identified by
 contractors were addressed in a timely and professional manner.
Page 6

Technicai Comments
           ..

         Page 3, last paragraph,   fourth line from bottom - replace “transcribe” with

         “input.”


         Page 6, first full paragraph, third line from bottom - remove the word

         “processing” from the sentence. ANSI fo~at,s are for ~smission         of da~ not

         processing. The “they” used in the be@ing       of the last sentence needs to be

         identified.


         Page 6, third paragraph, third line from bottom - it is not clear what is meant

         It
          . . . that recordkeeping requirements in the insurance industxy as a whole

         increase papenvork burden . . . .“ Doctors need to keep records so that they

         know what procedures they have performed on patien~ and to whom they have

         referred the patiens etc.


         Page 6, fouti paragraph, fourth sentence - HCFA is not planning to implement

         an ANSI standard uniform billing form. ANSI is a data transmission standar~

         not a billing form.


         Page 6, last paragraph, fifth sentence - OIG references specific legislation which

         would empower national standards organizations to establish mandatoxy

         standards for electronic transmission and payment of claims please provide the

         bill number and the session of Congress.


         page 17, Program Safeguard~ first paragraph - OIG cites a paper written by

         Peter Weiss on EDI. Please provide a citation for this paper.

                            APPENDIX                   B

                    OIG RESPONSE TO AGENCY COMMENTS

The Health Care Financing Administration (HCFA) commented on a draft version of
this report. The HCFA suggested changes in the report to better reflect its activities
and those of the Department with respect to EDI and paperless processing, made
suggestions about the focus of OIG’S work in this area, and gave us technical
comments. We have revised our report to address many of HCFAS comments and
also provide additional comments on HCFAS response below.

GENERAL COMMENTS

HCFA Comments

The HCFA believes that the OIG would be more effective and helpful to focus its
resources on those issues impacting most directly on the potential for fraud and abuse
in the Medicare and Medicaid programs (i.e., certifications, accountability, controls,
integrity, conflict of interests, contracts, legal use of information, audit trails, and
audits).

OIG Res~onse

The OIG recognizes that these areas are critically important and does plan to address
them in our current and upcoming reviews. The OIG believes, however, that the
other areas identified in this report also will have a direct bearing on Medicare and
Medicaid operational efficiency, controls, and economy, as well as on financial
management and reporting. Thus, OIG sees a need to address a broad range of EDI
and paperless processing issues in its current and future work plans.


HCFA Comments

Because the continued use of manual paper data systems will become increasingly
inefficient, the HCFA has suggested that the OIG, in a separate report, develop the
issue of small provider conversion to electronic media claims and electronic funds
transfer.

OIG Response

The OIG has developed a workplan item, “Adding Incentives and Removing Barriers
to Provider Participation in EDI and Paperless Processing.” The purpose of this study
is to assess how different providers can be brought into the EDI and paperless
processing environment, what barriers exist for providers, and whether HCFAS efforts
address those barriers and provide proper incentives for providers.




                                          B-1

INCENTIVES AND BARRIERS

HCFA Comments

In response to this report on the issue of HCFA’S goal to increase the rate of EFT for
Medicare payments made to hospital to 100 percent within 3 years, HCFA indicated
that it was reviewing public comments received in a response to its proposed notice
published January 15, 1993. This notice was intended to promote the use of
standardized electronic billing and payment by hospitals. Since then, HCFA concluded
that it had no legal authority to penalize hospitals that fail to comply with the notice.
When HCFA withdrew this notice on January 24, 1994, HCFA stated that the hospital
electronic media claims submission rates exceeded 90 percent.

OIG Resuonse

The OIG is pleased to see that HCFA has achieved a rate of EFT for Medicare
payments made to hospitals exceeding 90 percent, but OIG is concerned about the
remaining hospitals that do not participate in the use of standardized electronic billing
and payment mechanisms. As we have indicated in this report, we plan to look at
provider participation in EFT as part of our review of Medicare claims processing.
              APPENDIX                      C

           ACRONYMS USED IN THIS REPORT

ANSI          American National Standards Institute

ATM           automatic teller machine

BPO           Bureau of Program Operations

CHAMPUS	      Civilian Health and Medical Program of the
              Uniform Services

CMN           Certificate of Medical Necessity

CPR           computer-based   patient record

CPRI          Computer-Based    Patient Record Institute

DME           durable medical equipment

DUR           drug utilization review

EDI           electronic data interchange

EFT           electronic funds transfer

EMC           electronic media claims

ERN           electronic remittance notices

FAMIS�        Family Assistance Management       Information
              Systems

FMFIA         Federal Managers’ Financial Integrity Act

GAO           General Accounting Office

HCFA          Health Care Financing Administration

HHS           Health and Human Se~ices

IOM           Institute of Medicine

IRM           information resources management




                            c-l

MMIS   Medicaid Management       Information Systems

MTS    Medicare Transaction System

NIST   National Institute of Standards and
       Technology

OBRA   Omnibus Budget Reconciliation     Act

OIG    Office of Inspector General

PIN    personal identification numbers

Pos
   point of service

PRO    Peer Review Organization

SMA
   State Medicaid agencies

WEDI   Workgroup for Electronic Data Interchange




                      c-2
